                 Ideation Software Solution
                   Comparative Analysis




                           September 28, 2012




Prepared by U.S. Postal Service Office of Inspector General
            Revenue and Systems
            Report Number: SMT-WP-12-002
U.S. Postal Service Office of Inspector General                                 SMT-WP-12-002
 Ideation Software Solution Comparative Analysis


                       IDEATION SOFTWARE SOLUTION
                          COMPARATIVE ANALYSIS

                                     Executive Summary
In September 2009, the president initiated a Strategy for American Innovation, calling
for agencies to increase their ability to promote and harness innovation by using
incentives for individuals to submit ideas, such as prizes and challenges. In December
2009, the director of the Office of Management and Budget issued the Open
Government Directive, requiring executive departments and agencies to take specific
actions to further the principles established by the President’s memorandum.

In response to ongoing efforts to solicit ideas from multiple sources, the U.S. Postal
Service employed another means of collecting ideas from external personnel to
complement its existing process of collecting ideas from employees. Those external to
the Postal Service can submit ideas through an online form while internally, employees
can submit ideas through a system called eIDEAS. The Postal Service also receives
internal and external ideas via emails, letters and verbal communications.

The current systems and processes the Postal Service uses to collect ideas, do not
allow for the tracking or progression of an idea through the full “lifecycle”. The idea life
cycle takes an idea from the initial submission, through evaluation and proposal, to
ultimately a state where the idea, if appropriate, becomes a funded project. If it is not
appropriate to fund the project, the idea may be discarded or filed for later
consideration.

At the request of the president, Digital Solutions, we identified and reviewed potential
ideation software that the Postal Service may use to help solicit, receive, and evaluate
ideas, both internally and externally. In this paper, we discuss the various potential
software solutions and whether they have the Postal Service’s desired features and
functionalities.

Key conclusions in this paper are as follows:

   The Postal Service’s ideation program requires more than just effective software;
    people and programs are necessary to implement and maintain an ideation software
    solution.

   All the software solutions we reviewed had similar functionality that matched the
    preferred Postal Service criteria.

   When considering whether to select a cloud-based ideation or innovation software
    solution, the Postal Service should consider whether the ideation program is a long
    term solution, and to what extent it plans to expand the program to integrate a high
    number of users and large data storage.


                                                   i
U.S. Postal Service Office of Inspector General                                                                  SMT-WP-12-002
 Ideation Software Solution Comparative Analysis



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 3

Background ..................................................................................................................... 3

Evaluation Activities ........................................................................................................ 4

Evaluation Criteria ........................................................................................................... 5

Conclusion ...................................................................................................................... 6

Appendix A: Company Profiles ........................................................................................ 9

Appendix B: Detailed Analysis ...................................................................................... 15




                                                                 ii
U.S. Postal Service Office of Inspector General                                SMT-WP-12-002
 Ideation Software Solution Comparative Analysis


IDEATION SOFTWARE SOLUTION COMPARATIVE ANALYSIS

Introduction

In the face of increasing electronic diversion and a struggling economy, the U.S. Postal
Service is at a critical period in its history. To address its changing business, the Postal
Service must continually seek and research ways to meet the challenges of evolving
mail and shipping needs.

The Postal Service uses a variety of means to collect ideas, including on-line for
external idea submissions and eIDEAS software for internal idea submissions. These
mechanisms, however, have limitations, such as the lack of integration and evaluation
capabilities. The Postal Service’s Digital Solutions group has expressed interest in
improving its current method for soliciting, receiving, and evaluating ideas, both
internally and externally. As such, the Digital Solutions group requested the U.S. Postal
Service Office of Inspector General (OIG) to identify and review potential ideation
software that might help the Postal Service achieve these goals.

Background

Ideation is the process of inspiring, collecting, and acting on ideas from a broad set of
contributors who may be dispersed geographically and organizationally. Ideation is
becoming more popular in organizations wishing to increase employee engagement and
the quantity and quality of innovative ideas. The ideas may be contributed on an
ongoing basis, or in response to targeted "challenges" that address a specific business
goal or issue.

Before launching an ideation – or innovation – initiative, management in any
organization should consider several factors and determine whether conditions for
successful innovation are in place. Consideration should be given to:

   Obtaining necessary top-level commitment from the chief executive officer or
    influential executives.

   Whether there is organizational awareness of why it is innovating.

   Whether the organization’s focus is on increasing business value and tapping into
    key innovators.

   The organization’s culture, which should focus on or be fully prepared for innovation.

   The willingness within the organization to provide the fundamental resources
    necessary to implement innovations.

   The organization’s strategic and operational commitments to sustain ongoing value
    from innovation.

                                                   3
U.S. Postal Service Office of Inspector General                                               SMT-WP-12-002
 Ideation Software Solution Comparative Analysis



   The need for the organization to have innovation aimed at delivering disruptive and
    radical changes, and avoiding a focus on incremental improvements or changes.

Organizations, including private companies and government agencies, collect and
evaluate ideas, from their employees as well as the public, through innovation software.
Organizations that successfully manage innovation programs can increase revenue
generation, improve operational effectiveness, and pursue new business models or
business structures.

Currently, the Postal Service’s innovation program consists of collecting ideas from its
employees through a program called eIDEAS and from the public through an online
form on its website. The Postal Service also receives ideas via emails, letters, and
verbal communications. These mechanisms allow the Postal Service to collect ideas but
do not allow for collaboration and evaluation of ideas. The Postal Service also does not
provide feedback to people outside the organization that submit ideas, or notify
individuals regarding the status of their ideas. In 2010, the Postal Service Office of
Inspector General reported that the eIDEAS program was not timely and management’s
resulting actions were not transparent.1 Our survey of employees who submitted ideas
revealed that untimely evaluation, insufficient management commitment and
communication, and insufficient program transparency were perceived as inhibitors to
the program’s success.2

Evaluation Activities

To identify potential ideation software solutions the Postal Service could use, we
conducted the following activities:

   Met with several entities to facilitate our understanding of ideation software needs
    and capabilities, including:

    o Postal Service staff to assess the needs and desired system functionality.

    o Corporate Executive Board3 representatives to gather information on existing
      technology and data analytics.

    o A business analyst and subject matter expert from Gartner Inc.4 to validate our
      list of providers and system evaluation criteria.

   Participated in demonstrations of six ideation software products.

1
  Management Advisory – eIDEAS Timeliness and Transparency, page 1 (Report Number DA-MA-10-003, dated
August 3, 2010).
2
  Management Advisory – eIDEAS Timeliness and Transparency, page 2 (Report Number DA-MA-10-003, dated
August 3, 2010).
3
  The Corporate Executive Board is a member-based advisory company that provides comprehensive data analysis
and research and advisory services.
4
  Gartner Inc. is a leading information technology research and advisory company.

                                                      4
U.S. Postal Service Office of Inspector General                                                  SMT-WP-12-002
 Ideation Software Solution Comparative Analysis


   Reviewed Postal Service Publication 333, entitled “eIDEAS,” which describes the
    eIDEAS processes, awards, and features; and tested the online idea submission
    tool.

   Reviewed Gartner Inc. reports related to innovation.

   Explored various federal government innovation websites to understand how other
    large organizations collect and process ideas.

Evaluation Criteria

We developed a list of desired Postal Service functionality and features, based on our
understanding of ideation software, as well as discussions with Postal Service
Marketing Strategy and Innovation Group personnel. We used this list as criteria to
review and analyze the six software products. These criteria include:

   Ranking Feature/Crowd-Sourcing – This criteria identifies profitability, return on
    investment, impact on brand name, legal ramifications, practicality, complexity, and
    so forth. Additional feature that uses crowd-sourcing for promoting ideas for further
    evaluation and exposure.

   Compensation/Awards Mechanism – This assigns awards to ideas, and differentiate
    between internal and external ideas to compensate accordingly.

   Identifying Duplicates – This reduces redundancy of ideas by using crowd-sourcing5
    to easily identify similar ideas.

   Internal/External Idea Integration – This establishes one database in which the ideas
    collected externally, from the public, are integrated with those ideas submitted
    internally, from employees.

   User Friendliness – This is a submission process that has a simple interface and
    promotes the submission of additional ideas.

   Public Visibility – This allows anyone using the system to see previously submitted
    ideas and modify or add to them.

   Feedback Features – This allows individuals external to the organization to see what
    ideas have already been submitted, and provide a ‘common language’ for internal
    and external automated responses.

5
 Crowd-sourcing allows for greater collaboration and evaluation of ideas through voting and commenting on ideas by
many or all users, similar to social media.

                                                        5
U.S. Postal Service Office of Inspector General                                SMT-WP-12-002
 Ideation Software Solution Comparative Analysis



   Tracking – This provides the status of idea submissions via life-cycle updates.

   Solicitation/Challenges – This allows the capability to post specific challenges, or to
    solicit ideas on specific issues, incorporating prizes and awards as incentives.

   Manager Coordination – This routes ideas to the appropriate product manager and
    to identify who has been assigned the ideas for action.

   Organization/Categorizing – This establishes portfolios for ideas based on topic,
    product, and so forth.

   Input Format Integration – This has one repository for all ideas regardless of source
    (e-mail, hard-copy, website, and so forth).

   Security and Protection – This flags and protects proprietary information on ideas
    submitted by internal and external individuals.

See Appendix B for our detailed analysis for each of the six ideation software
companies based on the aforementioned criteria.

Conclusion

We identified the following six software providers that might be able to meet the Postal
Service’s ideation software needs and interests based on the aforementioned criteria:

       Brightidea
       Hype
       IdeaScale
       Imaginatik
       Kindling
       Spigit

The Gartner Inc. business analyst confirmed that these are the top six software
providers, emphasizing Brightidea, Hype, Imaginatik, and Spigit as four of the most well-
known and established providers in the industry. See Appendix A for a detailed profile of
each of the six companies we reviewed. The pricing information provided in Appendix A
is all of the pricing information available for each of the companies. In several instances,
there is not a specific price amount; rather pricing depends on many factors including
the client’s needs and usage.




                                                   6
U.S. Postal Service Office of Inspector General                                                     SMT-WP-12-002
 Ideation Software Solution Comparative Analysis


Software Features

All of the software solutions we reviewed are structured around ‘challenges,’ which
entails an organization posing specific issues or problems it would like ideas to address.
The software solutions also incorporate crowd-sourcing, similar to social media. With
each solution, users are able to vote, comment, submit, and track ideas that interest
them. Users are also able to identify similar ideas that have been submitted. Some
software solutions offer more project management tools, while others emphasize
ranking and crowd-sourcing by end-users.

After initial registration, including acceptance of terms and conditions and log on, many
of the software interfaces were user-friendly, although some were less busy and simpler
to navigate than others. All software solutions allowed importing and exporting of
documents, categorizing and tagging ideas, and some variation of reporting.

All six of the providers we reviewed offer Software as a Service (SaaS) cloud
computing, which allows the consumer to use the provider’s applications on a cloud
infrastructure.6 The applications are accessible from various devices through either a
web browser or a program interface. The consumer does not manage or control the
underlying cloud infrastructure including network, servers, operating systems, storage,
or even individual application capabilities, with the possible exception of limited user-
specific application configuration settings.

The ideation software providers prefer the use of cloud computing software and much of
the private sector is moving toward the cloud. The benefits of cloud-computing include
greater efficiency, agility, and innovation through greater data storage and near-
instantaneous increases and reductions in capacity. Some of drawbacks associated
with cloud-computing include perceived data security concerns and loss of data control.
Three of the ideation software providers we reviewed – Spigit, Hype, and Imaginatik –
recognize these concerns and offer the option to forego the cloud system and allow
clients to use their own firewalls or other security measures.

Elements of an Effective Ideation Program

An effective ideation program requires more than just effective software. People and
programs are necessary to implement and maintain the software and create effective
challenges to solicit new ideas to problems. Use of a moderator may also be necessary
to engage participants in discussions about ideas, follow the activities associated with
an idea, evaluate and prioritize ideas, and advance ideas to projects that are funded.
Ideas that do not warrant funding may be discarded or tabled for consideration in the
future.

6
  The National Institute of Standards and Technology (NIST) defines cloud computing as a model for enabling
ubiquitous, convenient, on-demand network access to a shared pool of configurable computing resources (for
example, networks, servers, storage, applications, and services) that can be rapidly provisioned and released with
minimal management effort or service provider interaction. The NIST Definition of Cloud Computing:
Recommendations of the National Institute of Standards and Technology, U.S. Department of Commerce, page 2
(2011), http://csrc.nist.gov/publications/nistpubs/800-145/SP800-145.pdf.

                                                          7
U.S. Postal Service Office of Inspector General                                  SMT-WP-12-002
 Ideation Software Solution Comparative Analysis



Four key components are necessary to effectively foster an organization’s innovation
system:

   Leadership is critical to setting the strategic intent for the focus of the innovation, and
    articulating where the organization wants to go to ensure that innovation is in
    strategic alignment with the organization’s vision. Leaders also communicate that
    focus so that the organization and external stakeholders understand the direction
    and the problems innovation may solve.

   Effective processes and employing the right types of techniques, tools, and activities
    to de-risk and test ideas are essential.

   The best organizations use leverage to effectively collaborate internally between
    business units and teams, as well as with external parties such as vendors, partners,
    and customers. For example, a company may generate ideas through a web portal
    that captures ideas from customers. The website may function as an open forum,
    allowing customers to post their own ideas and then read and vote on other
    customers’ ideas. Such a voting mechanism can provide a preliminary vetting
    process for all of the ideas submitted to the site. Additionally, the best organizations
    also leverage their assets and understand their areas of competitive advantage.

   Having the right people in place is crucial to the success of an innovation program.
    Having the right people in place means employing and structuring the right talent;
    managing that talent via sourcing strategies; creating reward and incentive
    structures and career paths for innovation talent; and fostering a strong culture of
    innovation.




                                                   8
      U.S. Postal Service Office of Inspector General                                   SMT-WP-12-002
       Ideation Software Solution Comparative Analysis


                                       Appendix A: Company Profiles



                               Brightidea
                     Brightidea, 101 Montgomery Street, Suite 2500, San Francisco, CA 94104
                                   http://www.brightidea.com/ 212-594-4500

 Overview
 Brightidea is a cloud-
 based system that
 emphasizes the use of
 challenges, each of
 which is moderated. It
 operates similar to a
 social network site,
 allowing ideas to be
 ranked by subject-
 matter experts and by
 crowd-source voting. It
 concentrates on moving
 raw ideas into tangible
 projects and assigning
 specific tasks. Each
 challenge may be open
 for everybody to use or
 limited to internal
 submissions with
 invitations to outsiders.
 The site provides
 feedback on quantity of
 posted ideas,
                                 Pros and Unique Features
 comments, and status               Users are allowed to give reasons for voting and give more
 of ideas.                           feedback to submitter.
                                    When appropriate, moderators assign tasks and due dates for
     Major Clients:                  implementation of mature ideas.
º Hewlett-Packard                   Subject matter experts rank ideas through survey of criteria.
Development Company,                There are robust project management tools and analytics for
L.P.                                 managers.
º Cisco Systems, Inc.
                                Cons
º Robert Bosch LLC
(Bosch).                            Relatively busy interface.
º Motorola Inc..                Pricing
º City of Houston.                  Annual licensing fee, one-time implementation support, and
                                     optional technical services.
                                                         9
      U.S. Postal Service Office of Inspector General                                     SMT-WP-12-002
       Ideation Software Solution Comparative Analysis




                                              Hype
                            Hype, 1 Broadway, 14th Floor, Cambridge, MA 02142
                              http://www.hypeinnovation.com 617-510-1804

 Overview
 Hype may be cloud-
 based, or can use
 SharePoint as a
 platform. Ideas are
 submitted through
 campaigns that are
 focused on specific
 topics. Campaigns
 comprise a core group
 of invited participants;
 therefore, access to a
 campaign is determined
 by expertise. Ideas are
 submitted by internal
 and external people and
 then goes through a
 workflow. End-users
 determine method and
 detail of feedback. The
 site clearly shows
 where you can share an          Pros and Unique Features
 idea or browse                        Subject-matter expert surveys include criteria that are weighted
 challenges. Ideas are                  by importance to specific project, and the weights help to rank
 progressed via crowd                   ideas by most important criteria.
 source voting and                     Internal and external ideas are all in one data-base, but system
 through subject-matter                 interaction is ‘role-based and determined by expertise or past
 expert surveys. Reports                activity.
 are robust and can be
 customized.                     Cons
                                        Campaigns are composed of a small core-team of invited
     Major Clients:                      individuals who have final say on project advancement
º Proctor &Gamble.                       and ranking. The crowd-sourcing simply directs their
º Adidas America Inc.                    attention.
º General Mills Inc.
                                Pricing
º Siemens AG.
                                       $50,000 base price – unlimited number of users.
º Deutsche Post DHL.


                                                         10
  U.S. Postal Service Office of Inspector General                                      SMT-WP-12-002
   Ideation Software Solution Comparative Analysis




                              IdeaScale
                       IdeaScale, 93 S. Jackson Street #14277 Seattle, WA 98104-281
                                http://www.ideascale.com/ 401-528-1145

Overview
IdeaScale software is
used primarily for an
internal system but can
integrate external
people through
invitation. It is not an
open registration
system. The campaigns
themselves are
determined to be public
or private. Ideas that do
not fit neatly within
current competitions
must be moved into one
before it is voted or
commented on. Within
competitions, the
moderator can set the
level of moderation for
campaigns to be high or
low. The software
searches for similar            Pros and Unique Features
ideas in real-time to                 Can vote on comments so the best comments can rise to the top
help avoid duplication.                for everyone to see.
                                      Competitions may be broken into sections, in which the first week
                                       is submission only, the second week is comments only and the
                                       third week is vote only.
    Major Clients:
º The White House.              Cons
º U.S. Environmental                   Relatively small company.
Protection Agency.                     Primarily intended for internal system use only, but allows
º U.S. General Services                 outside users through invitation only.
Administration.
º NASA.
                               Pricing
                                      Charge per size of ‘community:’
º Federal
                                       o $10,000 for one.
Communications
                                       o $20,000 for five.
Commission.
                                       o $30,000 for 20.
                                                      11
U.S. Postal Service Office of Inspector General                                                                            SMT-WP-12-002
 Ideation Software Solution Comparative Analysis




                                Imaginatik
                        I m a g i n a t i k , 2 0 7 S o u t h S t r e e t S i x t h F l o o r Bo s t o n , M A 0 2 1 1 1
                                     http://www.imaginatik.com/ 866-917-2675
Overview
Imaginatik is a large
company that emphasizes
changing the culture of an
organization to be more
innovative. External users
have access through
simple registration, so the
database is completely
integrated. Each
campaign has a sponsor
responsible for
demonstrating clear
business objectives of the
idea. When voting, each
user has a specific
number of votes per week
to use. The search feature
is extremely robust and
uses complex analytics for
specific criteria as desired.
Imaginatik identifies
innovation leaders and
high ranking ideas by
using ‘people Kudos’ and Pros and Unique Features
‘Idea Kudos’. The kudos is  The system uses ‘head-to-head’ competition between ideas
separate from the crowd-      based on predetermined criteria. Managers compare ideas
based voting system.          directly through the system, ranking each for which is ‘better,’ and
                              analytics helps rate and rank ideas.
      Major Clients:
º U.S. General Services
                                     Cons
Administration.                           Lots of focus on review process by business managers, requiring
º NASA.
                                           more overhead attention.
º The Boeing Company.                Pricing
º Kraft Foods Inc.                         Initial start up costs, annual fee per active user, possible
º Xerox Corp.                               enterprise license.


                                                               12
U.S. Postal Service Office of Inspector General                                    SMT-WP-12-002
 Ideation Software Solution Comparative Analysis




                                      Kindling
                          Kindling, 747 3rd Avenue 30th Floor New York, NY 10017
                               http://www.kindlingapp.com/ 877-568-8355

 Overview
 Kindling has a very
 simple and clean user
 interface. It is based on
 crowd-sourcing with
 each user having a
 specific amount of votes
 per week. The system
 uses campaigns that
 may be open to all or
 internal only. The
 moderator of each
 campaign may invite
 subject matter experts
 to help review ideas or
 campaigns. Users may
 upload attachments with
 a comment, rather than
 just with ideas
 submitted. An idea may
 advance through life-
 cycle automatically
 based on number of
 votes or inactivity time.        Pros and Unique Features
 Activity leaders appear
 on ‘leaderboard’ based              Partnered with Amazon.com and therefore is on the federal
 on comments, votes,                  cloud.
 and so forth.
                                     All votes count the same, but users may vote more than once on
       Major Clients:                 any idea.
 º U.S. Department of             Cons
 Veterans Affairs.                   Young (founded in 2010) and a relatively small company with few
 º The New York Times                 large clients similar to the Postal Service.
 Company.
 º Daymon Worldwide Inc.          Pricing
 º Costco Wholesale Corp.            SaaS based annual license based on number of users, 50
 º The Seattle Public                 percent discount for government agencies.
 Library.
                                                   13
 U.S. Postal Service Office of Inspector General                                     SMT-WP-12-002
  Ideation Software Solution Comparative Analysis




                                            Spigit
                          Spigit, 11951 Freedom Drive 13 th Floor, Reston VA 20190
                                   http://www.spigit.com/ 925-297-2600

 Overview
 Spigit is a large
 company with a cloud-
 based system. It has a
 very simple user-
 interface. It is based on
 campaigns, each of
 which may be open to
 all users or internal
 users only. With Spigit,
 not all votes count the
 same. Users earn
 ‘capabilities’ through
 activity within the
 system, which then can
 lead to greater
 responsibility in
 campaigns or to
 compensation rewards.
 Its emphasis is on the
 voting and organizing of
 ideas with end users
 rather than on reports or
 project management,             Pros and Unique Features
 though it can integrate
 with current project               Innovators are able to build their virtual currency from votes on
 management tools. The               ideas submitted, comments made, and other submissions. The
 reports are tailored                innovator may go to ‘store’ to buy either monetary or non-
 toward business                     monetary items.
 managers.
                                    Optional ‘trade’ feature where individuals may invest virtual
                                     currency into ideas on the system. If ideas increase in value then
      Major Clients:                 currency rises, like the stock market.
ºAT&T Intellectual               Cons
Property.
º Dupont.                           Young company, founded in 2007.
º JP Morgan Chase & Co.         Pricing
º The Coca-Cola                     Annual license fee based on number of active users.
Company.
º Wal-Mart Stores, Inc.
                                                    14
U.S. Postal Service Office of Inspector General                            SMT-WP-12-002
 Ideation Software Solution Comparative Analysis


                                                     Appendix B: Detailed Analysis




           XXXXXXXXXXXXXXXXXXXXXXXXXX
           XXXXXXXXXXXXXXXXXXXXXXXXXX
           XXXXXXXXXXXXXXXXXXXXXXXXXX

        NOTE: All of the software solutions had strengths and weaknesses; the xxxxxxxxxxxx is subjective feedback, and is not meant to
        indicate a preference or recommendation for one solution over another.
                                                                    15
